U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




               PUBLIC
              RELEASE


                  INTERNATIONAL TRADE
                       ADMINISTRATION

         US&FCS Belgium Needs to Make
  Organizational Modifications to Maximize
                  Export Promotion Efforts


     Audit Report No. BTD-10595-9-0001 / December 1998




       Office of Audits, Business and Trade Audits Division
U.S. Department of Commerce                                                                               Final Report BTD-10595
Office of Inspector General                                                                                        December 1998

                                                 TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
     BELGIAN MARKET . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
     US&FCS BELGIUM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

          I.        US&FCS SHOULD CONSIDER BENELUX REGIONAL STRATEGY
                    AND STREAMLINE BELGIUM OPERATIONS . . . . . . . . . . . . . . . . . . . . . . . . 5

                    A.         US&FCS Should Explore Benelux-wide Approach . . . . . . . . . . . . . . . . . 5
                    B.         US&FCS Should Integrate Belgian Operations . . . . . . . . . . . . . . . . . . . . . 6
                    C.         US&FCS Belgium Should Increase
                                Success Stories Beyond Trade Fairs . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
                    D.         US&FCS Should Increase Management Responsibilities of
                                Deputy Senior Commercial Officer . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

                    RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
                        US&FCS’s Response to Draft Report and OIG Analysis . . . . . . . . . . . . . 9

          II.       INTERNAL CONTROLS ARE SOUND, BUT
                    ACCOUNTING RECORDS SHOULD BE RECONCILED . . . . . . . . . . . . . . . 11

                    A.         Management Has Established Good Internal Control Systems . . . . . . . . 11
                    B.         Account Balances Differ Significantly . . . . . . . . . . . . . . . . . . . . . . . . . . 12
                    C.         US&FCS Belgium Has Unfunded FSN Severance Liability . . . . . . . . . . 14

                    RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
                        US&FCS’s Response to Draft Report and OIG Analysis . . . . . . . . . . . . 15

APPENDIX I - US&FCS’s Complete Response to the Draft Report
APPENDIX II - Acronyms
U.S. Department of Commerce                                                  Final Report BTD-10595
Office of Inspector General                                                           December 1998

                                  EXECUTIVE SUMMARY

As one of the leading trading nations in the world, Belgium offers a central location for reaching
the major European markets, a first-rate infrastructure, a skilled multilingual workforce, and an
open economy. Due to its long reliance on international trade, Belgium’s imports/exports
represent nearly 70 percent of its Gross Domestic Product. This figure makes Belgium one of
the highest per capita exporters in the world.

Belgium and the United States also have strong reciprocal trade relations. Belgium is a major
market for American products and imported an estimated $12.5 billion in 1996, about half of
which is re-exported. Belgium maintains an excellent investment climate. U.S. direct
investment in Belgium was $17.8 billion at the end of 1995, and new investments announced
since then exceed $3 billion. Over 1,200 American companies have operations in Belgium.

The U.S. and Foreign Commercial Service (US&FCS) post in Belgium has two American
officers and eight local employees to service the 10th largest U.S. export market in the world.
The operation is divided between offices on the ground and third floors of the U.S. Embassy in
Brussels. US&FCS Belgium also has responsibility for commercial affairs at the U.S. Embassy
in Luxembourg.

The Office of Inspector General conducted a performance audit of US&FCS operations in
Belgium from December 8 to 12, 1997.

US&FCS Should Consider Benelux Regional
Strategy and Streamline Belgium Operations

The Benelux region is made up of Belgium, the Netherlands, and Luxembourg. For some time,
US&FCS has reportedly considered a Benelux approach for its operations in these countries to
complement a Europe-wide commercial strategy. US&FCS has developed several policy papers
on a Benelux strategy and already manages Luxembourg from the US&FCS Belgium offices.
However, US&FCS did not take decisive action on a Benelux approach during 1997. A single-
management approach for the Benelux region, headquartered and managed by US&FCS
Belgium, could provide more coordinated services for U.S. companies approaching the region.
US&FCS should also better coordinate and streamline some of its two separate and distinct
operations in Belgium (see pages 5-6).

Two-thirds of the promotion successes reported by US&FCS Belgium were the result of four
trade events held each year that the post either coordinated or supported. However, excluding the
successes related to those events, US&FCS Belgium achieved only 16 success stories during the
two-year period. Based on the size and experience of the commercial staff, we believe US&FCS
Belgium should implement an action plan to increase the number of success stories generated
through its non-event-related products and services (see page 6).

                                                -i-
U.S. Department of Commerce                                                 Final Report BTD-10595
Office of Inspector General                                                          December 1998

Under the current office structure, the Deputy Senior Commercial Officer (D/SCO) directly
supervises only two of the six foreign service nationals (FSNs) responsible for industry sector
coverage. Some FSNs expressed confusion about the D/SCO’s role. The D/SCO is qualified to
take on additional management responsibilities. Assigning increased responsibilities to the
D/SCO would enable the commercial staff to more readily benefit from his substantive expertise
and would likely improve final work products (see page 7).

Internal Controls Are Sound, But Accounting Records Should Be Reconciled

US&FCS has established generally good internal control systems to meet the requirements of the
Federal Managers’ Financial Integrity Act of 1982 (31 U.S.C. §3512(b)). Under the act,
management is to establish internal control systems to ensure that (1) obligations and costs
comply with applicable law; (2) all assets are safeguarded against waste, loss, unauthorized use,
and misappropriation; and (3) revenues and expenditures applicable to agency operations are
recorded and accounted for properly. We found that internal control systems are in place to
document and record transactions and events and to ensure that assets are safeguarded. In
addition, the post has established proper physical asset management procedures over inventory
(see pages 11-12).

Some weaknesses in accounting controls need to be addressed. We found significant differences
between account balances recorded by the State Department and the International Trade
Administration. We also disclosed differences in trade account balances between the ITA’s
Trade Event Management System (TEMS) and the State Department records. Furthermore, we
determined that, as of the end of FY 1997, the total unfunded severance liability for US&FCS
Belgium was $1,030,285 (see pages 12-14).

Our most important recommendations call for the Assistant Secretary and Director General of
US&FCS to:

1.     Explore implementing a Belgium-based Benelux management approach for Belgium,
       Luxembourg, and the Netherlands, and streamline and integrate the two separate and
       distinct US&FCS operations in Brussels. (See page 7).

2.     Implement an action plan to increase success stories through non-event-related products
       and services. (See page 7).

3.     Determine the discrepancies between account balances reported by ITA and the State
       Department, including trade event obligations data reported by TEMS. (See page 11).




                                               -ii-
U.S. Department of Commerce                                                  Final Report BTD-10595
Office of Inspector General                                                           December 1998

                                              *****

In its response to our draft report, US&FCS generally agreed with our recommendations and
described a number of measures it has taken to implement the recommendations. These include:
(1) exploring where US&FCS Belgium and US&FCS EU could consolidate administrative
operations for efficiencies in time and cost; (2) calling Gold Key prospects to harvest more
success stories beyond trade events and providing headquarters with the results; (3) restructuring
the post so the Deputy SCO supervises all FSNs; and (4) reconciling trade event obligation
reports and preventing discrepancies between reports.

We have reiterated our recommendations without change in the final report. Summaries of
US&FCS’s response for each set of findings and recommendations are on pages 9 and 15, and
we have attached US&FCS’s complete response to the report.




                                               -iii-
U.S. Department of Commerce                                                           Final Report BTD-10595
Office of Inspector General                                                                    December 1998

                                           INTRODUCTION

Pursuant to the authority of the Inspector General Act of 1978, as amended, and the requirements
of the Omnibus Trade and Competitiveness Act of 1988 and the Export Enhancement Act of
1992, the Office of Inspector General conducted a performance audit of U.S. & Foreign
Commercial Service (US&FCS) operations in Belgium from December 8 to 12, 1997.

Performance audits are objective and systematic examinations of evidence for the purpose of
providing an independent assessment of an organization, program, activity, or function in order
to provide information to improve accountability and facilitate decision-making by parties with
responsibility to oversee or initiate corrective action. By identifying systemic strengths and
weaknesses, the OIG will help the Department’s managers, in this case those in ITA and
US&FCS, implement more efficient and effective operations to better serve the Department’s
customers.

We discussed our observations with the U.S. Ambassador to Belgium and held an exit
conference with the US&FCS Senior Commercial Officer (SCO) and the Regional Director for
Europe on December 12, 1997. The SCO generally agreed with our findings and
recommendations.

                                        PURPOSE AND SCOPE

The OIG is committed to the pursuit of operational effectiveness throughout the Department,
challenging management to achieve excellence with respect to programmatic, administrative, and
financial operations. The purpose of this performance audit was to evaluate the effectiveness of
the Department’s operations in Belgium.1

In accordance with the General Accounting Office’s (GAO) Standards for Internal Controls in
the Federal Government, we reviewed US&FCS internal control environment relating to
administrative and financial management. We conducted testing to achieve our objective of
determining the effectiveness of administrative and financial management controls. Computer-
generated data was used, but was not tested for reliability.

We tested the US&FCS Belgium’s operations for compliance with GAO’s Policy and
Procedures Manual for Guidance of Federal Agencies and the Federal Managers’ Financial
Integrity Act of 1982 requirements. The report findings and recommendations draw upon
significant tests of records; physical evidence; documentary evidence, including accounting
records and memorandums; and analytical evidence based on data obtained. We also gathered


        1
          The OIG discloses that some of the audit team members formerly worked for ITA; however, they had no
material involvement with US&FCS Belgium operations.

                                                     -1-
U.S. Department of Commerce                                                  Final Report BTD-10595
Office of Inspector General                                                           December 1998

testimonial evidence from interviews conducted with US&FCS personnel, business
organizations, and clients. The performance audit covered an extensive review of programmatic,
management, administrative, and financial issues.

We reviewed the policies, procedures, and practices being implemented by US&FCS to
determine if it is successfully and efficiently meeting its mission: to assist U.S. companies,
particularly small and medium-sized enterprises, with export assistance. We also determined if
US&FCS Belgium’s goals and objectives are being achieved, and whether these goals are line
with Department objectives. The audit evaluated the effectiveness and efficiency of operations,
and assessed the operation’s compliance with applicable laws, regulations, and procedures. The
audit also considered other departmental and ITA headquarters and domestic office activities that
are coordinated with US&FCS Belgium.

The audit was conducted in accordance with generally accepted government auditing standards
and was performed under the authority of the Inspector General Act of 1978, as amended, and
Department of Commerce Organization Order 10-13, dated May 22, 1980, as amended.

                                        BACKGROUND

BELGIAN MARKET

As one of the leading trading nations in the world, Belgium offers a central location for reaching
the major European markets, a first-rate infrastructure, a skilled multilingual workforce, and an
open economy. Due to its long reliance on international trade, Belgium’s imports/exports
represent nearly 70 percent of its Gross Domestic Product. This figure makes Belgium one of
the highest per capita exporters in the world.

Belgium imports many basic or intermediate goods, adds value, and then exports both finished
and semifinished products. Over 50 percent of Belgium’s industrial output is exported, with this
figure reaching 80 percent for some industries, such as textiles and glass. In addition to its own
exports, many countries view Belgium as an excellent transit and distribution center for reaching
the rest of the European market. As a result, almost 75 percent of Belgium's foreign trade is with
other European Union (EU) countries, which highlights the country's importance as a
commercial axis in Western Europe. Belgium and the United States also have strong reciprocal
trade relations. Belgium is a major market for American products and imported an estimated
$12.5 billion in 1996, about half of which is re-exported.

Belgium maintains an excellent investment climate. U.S. direct investment in Belgium was
$17.8 billion at the end of 1995, and new investments announced since then exceed $3 billion.
The more than 1,200 American companies with operations in Belgium play an active and
important role in the Belgian economy and are treated the same as Belgian enterprises. There are


                                                -2-
U.S. Department of Commerce                                                          Final Report BTD-10595
Office of Inspector General                                                                   December 1998

no restrictions on the repatriation of capital and profits, and there is no requirement that a
Belgian national own part of the firm’s equity.

US&FCS BELGIUM

US&FCS Belgium has two American officers and eight local employees to service the 10th
largest U.S. export market in the world. The operation is divided between offices on the ground
and third floors of the U.S. Embassy in Brussels. US&FCS Belgium also has responsibility for
commercial affairs at the U.S. Embassy in Luxembourg; the SCO is accredited to the Grand
Duchy of Luxembourg.

US&FCS Belgium promotes its program as having two major components: (1) trade promotion,
including business counseling and market research, and (2) supporting U.S. interests in Belgium.
The US&FCS Belgium commercial program is based on the FY 1998 Strategic Mission Plan,
which promotes seven basic objectives:

l       Maintaining Belgian support for open trade and investment policies compatible with U.S.
        trade and investment interests.
l       Expanding U.S. trade and investment opportunities in Belgium and Luxembourg.
l       Continuing the pursuit of administrative or legal means to promote favorable tax regimes
        for call centers and other potential investment projects.
l       Promoting Brussels as a platform for U.S. businesses expanding into Central and Eastern
        Europe, the Newly Independent States, and Russia.
l       Supporting Showcase Europe2 programs for the eight major product sectors.
l       Developing and coordinating the information and communication technology sector for
        Showcase Europe.
l       Developing a market plan for promoting U.S. trade and investment in Luxembourg.

We were unable to compare the resource allocation of US&FCS Belgium to those of other
US&FCS operations, because the resources of the US&FCS European Union Mission (US&FCS
EU), also headquartered in Brussels, are included with US&FCS Belgium resources on the
Overseas Resource Allocation Model. US&FCS ranks US&FCS Belgium and US&FCS EU
together, resulting in a ranking of 34th out of 69 countries on the model.

US&FCS is the Department’s only program being administered at the embassy in Brussels. In
FY 1996, total operating expenses amounted to $1,348,007, and in FY 1997, expenses equaled
$1,368,389--a modest increase of 1.51 percent. Total operating expenses include operating and
administrative (O&A) expenses authorized by Washington, salaries and benefits for American


        2
           The Showcase Europe strategy coordinates US&FCS efforts to approach Europe on a regional basis and
to move U.S. firms exporting to one or more European markets into additional markets.

                                                    -3-
U.S. Department of Commerce                                                Final Report BTD-10595
Office of Inspector General                                                         December 1998

officers, and expenses for International Cooperative Administrative Support Service (ICASS),
which are costs incurred by the post for administrative services provided by the State
Department.

Despite the modest increase in total operating expenses between FY 1996 and FY 1997, our
analysis of itemized expenses show large increases in costs for ICASS, direct program support,
and representation. These increases were offset by a decrease in embassy personnel expenses.
The increase in ICAAS was due to the changeover from the old Foreign Affairs Administrative
Services.




                                              -4-
U.S. Department of Commerce                                                Final Report BTD-10595
Office of Inspector General                                                         December 1998

                          FINDINGS AND RECOMMENDATIONS

I.     US&FCS SHOULD CONSIDER BENELUX REGIONAL
       STRATEGY AND STREAMLINE BELGIUM OPERATIONS

A.     US&FCS Should Explore Benelux-wide Approach

The Benelux region is made up of Belgium, the Netherlands, and Luxembourg. For some time,
US&FCS has considered a Benelux approach for its operations in these countries to complement
a European-wide commercial strategy. This type of market approach would address these
countries as a single market, with a headquarters office in Brussels and regional offices in the
Netherlands and Luxembourg. US&FCS has developed several policy papers on a Benelux
strategy and already manages Luxembourg from the US&FCS Belgium offices, but has a
separate and distinct US&FCS Netherlands operation. To date, US&FCS has not taken decisive
action on a Benelux approach.

Several U.S. government agencies, including the Foreign Agricultural Service, have already
implemented strategies to approach the Benelux region with a single management and operating
strategy. In addition, many state trade offices approach the Benelux region in the same manner.

Reasons supporting a an integrated Benelux strategy versus a three-country philosophy include:

l      The Benelux region is the second largest market in Europe and all of the countries have
       receptive, accessible, and manageable markets for export-ready companies.

l      The region is home to many U.S. company European-headquarters operations. US&FCS
       estimates that 60 to 70 percent of all new U.S. company distributorships for Europe are
       based in the Benelux region, and according to US&FCS, doing business there is easy,
       straightforward, and cost-effective.

l      Regionalizing the management approach for the Benelux can provide a cost savings and,
       for US&FCS, assist with the implementation of the Showcase Europe strategy.

A single-management approach for the Benelux region, headquartered and managed by US&FCS
Belgium, could provide more coordinated services for U.S. companies exporting to that region.
In addition, the experienced and capable staff at US&FCS Belgium could provide the necessary
support for management to implement a new Benelux approach.

B.     US&FCS Should Integrate Its Belgian Operations

US&FCS has two separate and distinct operations in Brussels: US&FCS Belgium located at the
U.S. Embassy, and US&FCS European Union, located at the United States Mission to the

                                               -5-
U.S. Department of Commerce                                                              Final Report BTD-10595
Office of Inspector General                                                                       December 1998

European Union. US&FCS Belgium and US&FCS EU have separate program functions and
administrative operations, and report to separate ambassadors, the U.S. ambassador to Belgium
and the U.S. ambassador to the EU. However, administrative functions for all U.S. government
agencies are provided by the Joint Administrative Service (JAS), and the same official at JAS
handles all US&FCS functions.3 Because the two US&FCS operations are so closely located to
one another, maintain redundant administrative functions, and rely upon JAS for administrative
services, US&FCS should consolidate its Belgian administrative functions with those of
US&FCS EU to realize administrative efficiencies.

US&FCS should also explore ways to more closely coordinate program and management
functions of its two distinct operations in Brussels. Currently, these two offices conduct their
programmatic activities independently; better coordination could improve program integration
and provide better service to the U.S. business community. In addition, whether or not US&FCS
adopts a Benelux-wide approach (as mentioned above), US&FCS should consider ways to
integrate its Belgian management and programmatic functions.

C.      US&FCS Belgium Should Increase Success Stories Beyond Trade Fairs

US&FCS Belgium achieved a total of 47 “success stories” (a record of export actions achieved
by U.S. companies in which US&FCS played a role) in FY 1996 (25) and FY 1997 (22). Two-
thirds (31) of those success stories were the result of four trade events held each year that the
Commercial Section either coordinated or supported.

                               Event                    Industry          Success Stories
                    TMAB Brussels                   Telecom                       6
                    European Seafood Expo           Seafood                       9
                    Decosit                         Fabric                        12
                    High Point                      Furniture                     4

We commend US&FCS Belgium for the positive results that these four trade events have
generated for U.S. companies, the vast majority of which represent small businesses, the target
market of US&FCS. However, excluding the success stories related to these events, US&FCS
Belgium achieved only 16 success stories during the two-year period. Based on the size and
experience of the commercial staff, we believe US&FCS Belgium is capable of implementing an



        3
          Joint Administrative Services is the State Department’s administrative operation in Belgium. It provdes
administrative services to the USEU, the U.S. Embassy in Belgium, and the U.S. representatives to the North
Atlantic Treaty Organization.

                                                       -6-
U.S. Department of Commerce                                                  Final Report BTD-10595
Office of Inspector General                                                           December 1998

action plan to increase the number of success stories generated through its non-event-related
products and services (i.e. market research, contact information and the Gold Key Service).

D.     US&FCS Should Increase Management Responsibilities
       of Deputy Senior Commercial Officer

Under the current office structure, the Deputy Senior Commercial Officer (D/SCO) directly
supervises only two of the six foreign service nationals (FSNs) responsible for industry sector
coverage. The other FSNs report to a senior supervisory FSN. To enhance the work products of
the office staff, as well as the D/SCO’s career development, the D/SCO should assume increased
management responsibilities.




Without exception, our interviews with the commercial staff revealed a high level of confidence
in the D/SCO’s commercial knowledge and expertise. However, several of the FSNs handling
substantive assignments do not report to the D/SCO, and therefore have less opportunity to draw
on that knowledge. A negative by-product of this arrangement is that the SCO does not serve as
second-line supervisor for these individuals. In addition, by not directly supervising more of the
staff, the D/SCO has less management responsibility. As a result, many of the FSNs expressed
confusion about the D/SCO’s role. The D/SCO is qualified to take on additional management
responsibilities. Providing greater responsibility to the D/SCO would enable the commercial

                                                -7-
U.S. Department of Commerce                                                 Final Report BTD-10595
Office of Inspector General                                                          December 1998

staff to more readily benefit from his substantive expertise and would likely improve final work
products. Increased responsibility would also provide experience valuable to the career growth
of the D/SCO.




                                   RECOMMENDATIONS

We recommend that the Assistant Secretary and Director General of US&FCS:

1.     Explore implementing a Belgium-based Benelux management approach for Belgium,
       Luxembourg, and the Netherlands.

2.     Streamline and integrate the two US&FCS operations in Brussels.

3.     Implement an action plan to increase success stories through non-event-related products
       and services.

4.     Increase the management and supervisory responsibilities of the Deputy Senior
       Commercial Officer.




                                               -8-
U.S. Department of Commerce                                                  Final Report BTD-10595
Office of Inspector General                                                           December 1998

US&FCS’s Response to Draft Report and OIG Analysis

In its reply to our draft report, US&FCS agreed to, or has taken action consistent with, all of our
recommendations. We are encouraged by US&FCS’s commitment to determining and
implementing the most efficient means of conducting its Belgium operations. A summary of
US&FCS’s position on each recommendation, as stated in the draft report, is presented with OIG
comments on the US&FCS response.

Recommendation #1:

Explore implementing a Belgium-based Benelux management approach for Belgium,
Luxembourg, and the Netherlands.

US&FCS Response: US&FCS considered implementing this approach at a time when there was
no Senior Commercial Officer in The Hague. The need for further consideration was abrogated
when an SCO acceptable to the then-Ambassador was assigned in February 1998. There would
have been considerable opposition to the idea from the Ambassador, as well as from the business
community, so the proposal is not in the best interests of US&FCS and US businesses. US&FCS
operations in Belgium work together on a variety of events, and the new SCO in Luxembourg is
involving his office with the US&FCS Brussels portfolio.

OIG Comments: We concur with US&FCS’s response to our recommendation.

Recommendation #2:

Streamline and integrate the two US&FCS operations in Brussels.

US&FCS Response:

US&FCS has charged the two operations in Brussels to explore, with the Joint Administrative
Services, areas where the two operations could consolidate administrative functions if they result
in efficiencies in time and cost.

OIG Comments: We concur with US&FCS’s response to our recommendation. We look
forward to receiving US&FCS’s timetable for a timetable for the review of administrative
operations and implementation of the review’s recommendations.

Recommendation #3:

Implement an action plan to increase success stories through non-event-related products and
services.

                                                -9-
U.S. Department of Commerce                                                Final Report BTD-10595
Office of Inspector General                                                         December 1998

US&FCS Response: The post has undertaken a concerted effort to harvest more success stories
by calling Gold Key prospects and following up with participants in trade events. The post will
provide headquarters with an accounting of its results.

OIG Comments: We concur with US&FCS’s response to our recommendation.

Recommendation #4:

Increase the management and supervisory responsibilities of the Deputy Senior Commercial
Officer.

US&FCS Response: The SCO restructured the post’s reporting system so the Deputy SCO now
supervises all FSNs.

OIG Comments: We concur with US&FCS’s response to our recommendation.




                                              -10-
U.S. Department of Commerce                                                 Final Report BTD-10595
Office of Inspector General                                                          December 1998

II.    INTERNAL CONTROLS ARE SOUND, BUT
       ACCOUNTING RECORDS SHOULD BE RECONCILED

US&FCS has established generally good internal control systems to meet the requirements of the
Federal Managers’ Financial Integrity Act of 1982 (FMFIA) (31 U.S.C. §3512(b)). Internal
control systems are in place to document and record transactions and events and to ensure that
assets are safeguarded against waste, loss, unauthorized use, and misappropriation. We found
that the post has established proper physical asset management procedures over inventory.

Some weaknesses in accounting controls need to be addressed. We found significant differences
between account balances recorded by the State Department and the International Trade
Administration. We also identified differences in trade account balances between the Trade
Event Management System (TEMS) and the State Department records. Furthermore, we
determined that as of the end of FY 1997, the total unfunded severance liability for US&FCS
Belgium was $1,030,285.

A.     Management Has Established Good Internal Control Systems

US&FCS Brussels has established good internal control systems to comply with FMFIA.
Systems are in place to document and record transactions and events and to ensure that assets are
safeguarded against waste, loss, unauthorized use, and misappropriation. With minor
exceptions, management has separated key duties and responsibilities in authorizing, processing,
recording, and reviewing transactions among key individuals. The organizational structure over
financial and administrative functions at post is efficient and effective.

In addition to US&FCS’s internal controls over transactions, additional State Department
embassy personnel are also monitoring transactions. According to the State Department’s
General Services Officer (GSO), procurements are closely monitored. In instances of
questionable procurements, the GSO has actively participated in the process. For example, the
SCO’s residence was recently updated with new furnishings. The GSO and the housing
coordinator met at the residence and agreed on the necessary procurements. The GSO also
closely participated in the approval process and sought proper justification of a recently
purchased vehicle. The GSO ensures that purchase orders are properly approved.

Post has established proper physical asset management procedures

The post has established proper physical asset management procedures to ensure that assets are
safeguarded against waste, loss, unauthorized use, and misappropriation. Logs are in place to
track inventory, cellular phones, and the use of vehicles. Unlike other posts, US&FCS Belgium
has the inventory log updated by the State Department each time procurements are received. Use
of cellular phones is monitored by senior management, and logs are in place. Use of vehicles is
also closely monitored and tracked by management.

                                              -11-
U.S. Department of Commerce                                                         Final Report BTD-10595
Office of Inspector General                                                                  December 1998

US&FCS Brussels is actively engaged in ICASS

US&FCS Brussels is actively engaged in ICASS to ensure that expenditures are accounted for
properly in accordance with FMFIA. Through interviews conducted during our fieldwork, we
noted that management actively participates in ICAAS meetings and is aware of the itemized
charges billed to US&FCS. When management is not aware of the charges or how the charges
are calculated, it meets with the service provider to understand the charges to ensure the agency
is being billed appropriately.

B.     Account Balances Differ Significantly

Our review of official records disclosed significant differences in account balances reported by
State, ITA, and US&FCS Washington. During our review of account balances, we identified a
net difference of $28,668 between State and ITA accounting data for expenditures. The
following table shows a breakdown of the account balance differences.

             FY 1997 Reconciliation of State and ITA Belgium Accounting Data

                     Expenditure           State Balance       ITA Balance   Difference

                O&A                    $         858,221       $   790,851   $     67,370

                Reimbursables                              0       130,235       (130,235)

                Trust Funds                      188,413            96,880         91,533

                Total                                                        $     28,668


For O&A, the ITA account balance includes American officer salaries and benefits, while State’s
does not. However, adjusting for the $234,523 in American officer salaries and benefits for FY
1997 increases the net difference to $263,191. We were unable to determine the reason for the
discrepancy in this balance. Likewise, we could not determine the reason for the difference in
the Reimbursables account balances. However, since post records indicated no reimbursable
activity in FY 1997, the discrepancy may be the result of ITA accounting errors. ITA and
US&FCS need to reconcile their account balances and determine the reasons for the significant
discrepancies.

Account balances in the Trade Event Management System
differ significantly with State Department records

Our review of official records disclosed large differences in account balances reported by State
and US&FCS headquarter’s TEMS. During our review of account balances, we identified net
differences of around $95,000 and $85,000 between State and TEMS data for FY 1996 and FY


                                                  -12-
U.S. Department of Commerce                                                          Final Report BTD-10595
Office of Inspector General                                                                   December 1998

1997 trade event overseas obligations. The following tables show a breakdown of the account
balance differences.

                     FY 1996 Reconciliation of State and TEMS Belgium Data

 Event                               Obligations per State    Obligations per TEMS        Difference

 Business Facilitation Service   $                  16,832    $                  0   $                 16,832

 Ambassador’s Tour                                  22,294                  18,938                      3,356

 European Seafood                                      520                   1,132                      (612)

 Decosit                                            75,448                       0                     75,448

 Total                           $                 115,094    $             20,070   $                 95,024



                     FY 1997 Reconciliation of State and TEMS Belgium Data

 Event                           Obligations per State        Obligations per TEMS        Difference

 Business Facilitation Service   $                  15,953    $                  0   $                 15,953

 Gold Key                                            6,000                       0                      6,000

 Study USA                                          38,151                  40,000                 (1,849)

 ABC Conference                                     12,419                  13,150                      (731)

 Standards Seminar                                   7,846                   7,850                        (4)

 European Seafood                                    1,026                   1,100                       (74)

 Matchmaker                                         15,653                  15,950                      (297)

 Decosit                                            65,924                       0                     65,924

 Total                           $                 162,972    $             78,050                $84,922

For events with minor account balance differences, the discrepancy could be the result of timing
differences or rounding. However, most of the total discrepancy is the result of a few events for
which TEMS shows zero obligations.

We also found discrepancies between State Department and TEMS data for trade event cash
collections. While we found no discrepancies between the post’s and State’s collection records,
we found net differences of around $18,500 and $3,400 between State and TEMS records for
trade event cash collections for FY 1996 and FY 1997. The following tables show a breakdown
of the discrepancies.

                                                       -13-
U.S. Department of Commerce                                                           Final Report BTD-10595
Office of Inspector General                                                                    December 1998



                          FY 1996 Reconciliation of State and TEMS Data
                              Belgium Trade Event Cash Collections

 Event                               Collections per State     Collections per TEMS        Difference

 Business Facilitation Service   $                  20,700     $             19,965   $                  735

 Ambassador’s Tour                                  18,701                   37,976                (19,275)

 Total                           $                  39,401     $             57,941               $(18,540)



                          FY 1997 Reconciliation of State and TEMS Data
                              Belgium Trade Event Cash Collections

 Event                               Collections per State     Collections per TEMS        Difference

 Business Facilitation Service   $                  13,873     $             11,652   $                 2,221

 Gold Key                                             6,250                   5,000                     1,250

 Standards Seminar                                    8,979                   8,979                        0

 ABC Conference                                     14,105                   14,105                        0

 Study USA                                          43,402                   43,479                      (77)

 Total                           $                  86,609     $             83,215   $                 3,394


While the minor discrepancies between State and TEMS records are most likely the result of
rounding or timing differences, we could not find an explanation for those events showing large
collection discrepancies. As a result of these discrepancies in account balances, US&FCS may
be relying on inaccurate data to oversee trade events at its foreign posts. US&FCS needs to
reconcile its trade event account balances with State Department records and determine the
reason for the significant discrepancies.

C.       US&FCS Belgium Has Unfunded FSN Severance Liability

FMFIA, the GAO Policy and Procedures Manual for Guidance of Federal Agencies, and the
Chief Financial Officers Act of 1990 require that US&FCS Washington account for its FSN
severance liability. The severance liability consists of payments due to eligible FSNs in the event
of voluntary or involuntary separation. The State Department’s personnel division determined
that as of the end of FY 1997, the total unfunded severance liability for US&FCS Belgium was
$1,030,285. This amount should be reported to US&FCS Washington and updated yearly.

                                                        -14-
U.S. Department of Commerce                                                   Final Report BTD-10595
Office of Inspector General                                                            December 1998

                                    RECOMMENDATIONS

We recommend that the Assistant Secretary and Director General of US&FCS:

1.     Determine the reasons for discrepancies between account balances reported by ITA and
       State Department and take corrective action to prevent such discrepancies.

2.     Determine the reasons for discrepancies between trade event obligations reported by
       TEMS and State Department and take corrective action to prevent such discrepancies.

3.     Accurately account for the total unfunded personnel liability to ITA and budget for
       expected FY 1998 separations.

US&FCS’s Response to Draft Report and OIG Analysis

In its reply to our draft report, US&FCS agreed to, or has taken action consistent with, all of our
recommendations.

Recommendation #1:

Determine the reasons for discrepancies between account balances reported by ITA and State
Department and take corrective action to prevent such discrepancies.

US&FCS Response: The Office of International Operations has instructed the post to request
and review records provided by the FMC and cross-check these with post records.

OIG Comments: We concur with US&FCS’s response to our recommendation.

Recommendation #2:

Determine the reasons for discrepancies between trade event obligations reported by TEMS and
State Department and take corrective action to prevent such discrepancies.

US&FCS Response:

The Office of International Operations has instructed the post to ensure that event reports sent to
OIO and the Office of Trade Events Management are reconciled with reports that FMC generates
for obligations. OIO will also issue guidance to the post on closing out trade events to ensure
that the TEMS can be updated with accurate information.

OIG Comments: We concur with US&FCS’s response to our recommendation.

                                                -15-
U.S. Department of Commerce                                                Final Report BTD-10595
Office of Inspector General                                                         December 1998

Recommendation #3:

Accurately account for the total unfunded personnel liability to ITA and budget for expected FY
1998 separations.

US&FCS Response:

Shortly after the OIG visit, the post reported its unfunded liabilities to headquarters. ITA
Administration is now reviewing the issue of US&FCS’s unfunded liabilities and is determining
options on how to remedy the situation.

OIG Comments: We concur with US&FCS’s response to our recommendation.




                                              -16-
U.S. Department of Commerce                                                Final Report BTD-10595
Office of Inspector General                                                         December 1998

                                        APPENDIX II

Acronyms

D/SCO                  Deputy Senior Commercial Officer
EU                     European Union
FIA                    Federal Managers’ Financial Integrity Act of 1982
FSN                    foreign service national
GAO                    General Accounting Office
GSO                    general services officer
ICASS                  International Cooperative Administrative Support Service
JAS                    Joint Administrative Service
ITA                    International Trade Administration
O&A                    Operating and Administrative
OIG                    Office of Inspector General
SCO                    senior commercial officer
TEMS                   Trade Event Management System
US&FCS                 U.S. and Foreign Commercial Service
